APPENDIX

842

989 FEDERAL REPORTER, 3d SERIES

extends to both how it assessed expert’s
reliability as well as its ultimate determination of reliability. Fed. R. Evid. 702.

UNITED STATES of America,
Plaintiff - Appellee,
v.

3. Criminal Law O478(1), 486(2)

Justin Lane FOUST, Defendant Appellant.
No. 19-6161
United States Court of Appeals,
Tenth Circuit.
FILED March 2, 2021
Background: Defendant was convicted in
the United States District Court for the
Western District of Oklahoma, Stephen P.
Friot, J., of wire fraud, aggravated identity
theft, and money laundering, and he appealed.
Holdings: The Court of Appeals, Kelly,
Senior Circuit Judge, held that:
(1) district court did not abuse its discretion in finding handwriting expert’s
methodology sufficiently reliable, and
(2) expert’s reliance on exemplars created
several months outside two-year period
surrounding alleged forgeries did not
render his methodology sufficiently unreliable to preclude its admission.
Affirmed.
1. Criminal Law O1153.12(3)
Court of Appeals reviews district
court’s application of rule of evidence governing expert witnesses and Daubert for
abuse of discretion, giving district court
substantial deference, reversing only when
its ruling was arbitrary, capricious, whimsical, or manifestly unreasonable or when
it made clear error of judgment or exceeded bounds of permissible choice in circumstances. Fed. R. Evid. 702.
2. Criminal Law O469.2
When deciding whether to admit expert testimony, district court’s discretion

When deciding whether to admit expert testimony, district court must determine whether witness has requisite
knowledge, skill, experience, training, or
education to provide expert opinion, and if
so, whether expert’s opinion is reliable by
assessing underlying reasoning and methodology; if either of these steps renders
expert’s opinion unreliable, testimony is
inadmissible. Fed. R. Evid. 702.
4. Criminal Law O486(2)
In deciding whether expert’s methodology is sufficiently reliable, factors that
court may consider include: (1) whether
theory can be tested; (2) whether it is
subject to peer review and publication; (3)
known or potential error rate; (4) existence
and maintenance of standards; and (5) general acceptance in relevant scientific community. Fed. R. Evid. 702.
5. Criminal Law O486(4)
District court did not abuse its discretion in finding handwriting expert’s methodology sufficiently reliable to warrant admission of his testimony in defendant’s
prosecution for wire fraud, aggravated
identity theft, and money laundering based
on his alleged forgery of customer’s employees’ signatures on invoices, even
though testing of handwriting comparison
mostly fell short of rigors demanded by
ideals of science, there was no evidence
regarding peer review or error rates, and
expert’s analysis relied on his subjective
judgment; expert had undergone years of
training, been certified by organizations of
forensic examiners, and rendered expert
opinions in hundreds of cases, and expert
used accepted methodologies. Fed. R.
Evid. 702.

A1

843

U.S. v. FOUST
Cite as 989 F.3d 842 (10th Cir. 2021)

6. Criminal Law O486(4)
Handwriting expert’s reliance on exemplars created several months outside
two-year period surrounding alleged forgeries did not render his methodology sufficiently unreliable to preclude its admission in defendant’s prosecution for wire
fraud, aggravated identity theft, and money laundering based on his alleged forgery
of customer’s employees’ signatures on invoices, notwithstanding expert’s testimony
that ‘‘it would be nice if [exemplars] were
written relatively contemporaneous in time
with the questioned writing, and that can
be within a year or two preceding or following the documents at issue’’; issue went
to weight, not admissibility of expert’s testimony, and defendant used much of his
cross-examination to discredit exemplars’
reliability. Fed. R. Evid. 702.
Appeal from the United States District Court for the Western District of
Oklahoma (D.C. No. 5:18-CR-00011-F-1)
Howard A. Pincus, Assistant Federal
Public Defender (and Virginia L. Grady,
Federal Public Defender, with him on the
briefs), Denver, Colorado, for Defendant Appellant.
Jessica L. Perry, Assistant United
States Attorney (and Timothy J. Downing,
United States Attorney, with her on the
brief), Oklahoma City, Oklahoma, for
Plaintiff - Appellee.
Before McHUGH, KELLY, and EID,
Circuit Judges.
KELLY, Circuit Judge.
Defendant-Appellant Justin Foust appeals from his conviction on six counts of
wire fraud, and one count each of aggravated identity theft and money laundering.
1.

He was sentenced to 121 months’ imprisonment and three years’ supervised release. Briefly, Mr. Foust’s company, Platinum Express, LLC, submitted false and
fraudulent invoices to its customer, Chesapeake Energy Corporation (‘‘Chesapeake’’). Chesapeake identified more than
$4.5 million that it had paid out on these
invoices. Mr. Foust did not deny that the
invoices were improper and that Platinum
Express had not performed the work. But
he denied that he had forged the signatures and employee identification numbers
of Chesapeake employees. A handwriting
expert testified otherwise regarding invoices associated with Chesapeake employee Bobby Gene Putman.1 The jury
convicted Mr. Foust on the wire-fraud and
aggravated-identity-theft counts associated
with these invoices.
On appeal, Mr. Foust argues that the
district court abused its discretion by allowing the handwriting expert to testify at
trial. He contends that (1) the government
did not adequately show that the expert’s
methodology was reliable and (2) the handwriting expert used unreliable data in
reaching his opinion. This court has jurisdiction under 28 U.S.C. § 1291, and we
affirm.
Background
Mr. Foust was a production foreman at
Chesapeake where he operated oil and gas
wells. In 2011, he left Chesapeake to start
Platinum Express, which performed waterhauling services for oil and gas companies.
Not long after forming, Platinum Express
entered into a contract with Chesapeake.
A few years later, Chesapeake employees
discovered the fraudulent invoices submitted by Platinum Express. Chesapeake began investigating the matter and told Mr.

Both the government and Mr. Foust use the
spelling ‘‘Putnam’’ in their briefs, but at trial

A2

his name was spelled ‘‘Putman.’’ 3 R. 85. We
will use ‘‘Putman’’ in this opinion.

844

989 FEDERAL REPORTER, 3d SERIES

Foust that it was going to exercise its
contractual right to examine Platinum Express’ computers and business records.
But while Chesapeake investigators were
travelling to the Platinum Express office,
Mr. Foust told them that someone had
broken into the office and stolen two computers. The investigating sheriff’s deputy
believed the break-in was staged by Mr.
Foust. Chesapeake decided to turn the
investigation over to the FBI.
When the FBI initially talked to Mr.
Foust, he blamed the fraudulent invoices
on Mr. Lucas, Platinum Express’ general
manager, and Ms. Lucas, the office manager. However, the agents could not connect
the Lucases to the fraudulent invoices, so
they determined that Mr. Foust was likely
involved. The FBI learned, among other
things, that: Mr. Foust had access to and
controlled the Platinum Express account;
all of the checks from Chesapeake were
traced into the Platinum Express account
and the Fousts used that account for personal expenses; the Fousts received business profits; and Mr. Foust was knowledgeable of Chesapeake’s practices due to
his previous employment there.
Prior to trial, Mr. Foust requested a
Daubert hearing to determine whether the
government’s handwriting expert, Arthur
Linville, would be allowed to testify. Mr.
Linville is an experienced, board-certified
forensic document examiner and was initially retained by Chesapeake during its
investigation. During the hearing he explained his methodology, which consists of
comparing the known writing with ‘‘exemplars of the suspect’s writing.’’ 2 R. 15. He
looks for common characteristics between
the exemplars as well as any unexplained
differences. When comparing exemplars,
Mr. Linville considers their ‘‘[q]uantity,
quality and comparability.’’ Id. at 29. He
first determines the number of exemplars
needed for a comparison, which depends

on the range of variation in an individual’s
handwriting. He considers whether an exemplar was written ‘‘in the normal course
of business’’ and prefers ‘‘relatively contemporaneous’’ writings ‘‘within a year or
two’’ of each other. Id. at 28–29. However,
Mr. Linville explained that the necessary
timing can vary noting that change in
handwriting over time is ‘‘somewhat overstated.’’ Id. at 43–44. Mr. Linville follows
American Society for Testing and Materials (‘‘ASTM’’) standards but conceded at
the hearing that they are ‘‘pretty basic’’
and not ‘‘hard-and-fast rules.’’ Id. at 57–59.
Finally, he mentioned that studies have
found that forensic document examiners
had a less than 1% error rate, while lay
people had a 6.5% error rate.
While explaining his analysis of this
case, Mr. Linville sorted the invoices by
the type of forgery, which included ‘‘cut
and paste’’ forgeries and ‘‘freehand’’ forgeries. Id. at 18. The fraudulent invoices
associated with another Chesapeake employee (Jeff Willis) were cut-and-paste forgeries. Mr. Linville could not provide an
opinion on these forgeries and the jury
ultimately hung on the counts associated
with them. On the other hand, the invoices
with Bobby Gene Putman’s signatures
were freehand forgeries. Mr. Linville testified that the invoices with Mr. Putman’s
signature ‘‘absolutely were not Mr. Putman’s signature’’ but were written in the
natural hand of the writer — i.e., the
author did not try to recreate the signature. Id. at 26–27. He was able to rule out
the Lucases because of the different style
of numbers and the quality of penmanship.
As to Mr. Foust, Mr. Linville compared
the invoices to exemplars of Mr. Foust’s
writing from 2002, 2011, and 2017. Mr.
Linville opined that Mr. Foust forged Mr.
Putman’s signature because of similarities
in pictorial appearance, skill, and other
unique characteristics in the numbers.

A3

U.S. v. FOUST
Cite as 989 F.3d 842 (10th Cir. 2021)

Next, the district court laid out the standards it would apply under Rule 702 and
summarized Mr. Linville’s testimony. The
court concluded that Mr. Linville was using an accepted methodology and reliably
applied the methodology to the facts of the
case. Although the court noted that handwriting comparison looks like ‘‘black magic’’ to the ‘‘untrained eye,’’ it was still able
to look at the samples and determine
whether there were facts supporting Mr.
Linville’s opinion. Id. at 70–71. Therefore,
the court concluded that Mr. Linville’s testimony was admissible.
Discussion
[1, 2] We review the district court’s application of Rule 702 and Daubert for
abuse of discretion. Etherton v. Owners
Ins. Co., 829 F.3d 1209, 1216 (10th Cir.
2016). We give the district court substantial deference, reversing only when its ruling was ‘‘arbitrary, capricious, whimsical
or manifestly unreasonable’’ or when it
made ‘‘a clear error of judgment or exceeded the bounds of permissible choice in
the circumstances.’’ Id. (quoting Dodge v.
Cotter Corp., 328 F.3d 1212, 1223 (10th
Cir. 2003)). The district court’s discretion
extends to both how it assessed the expert’s reliability as well as its ‘‘ultimate
determination of reliability.’’ Id. (quoting
Goebel v. Denver & Rio Grande W. R.R.
Co., 346 F.3d 987, 990 (10th Cir. 2003)).
[3] Federal Rule of Evidence 702 requires federal courts to ensure that expert
testimony ‘‘is not only relevant, but reliable.’’ Daubert v. Merrell Dow Pharms.,
Inc., 509 U.S. 579, 589, 113 S.Ct. 2786, 125
L.Ed.2d 469 (1993). A district court first
determines whether the witness has the
requisite ‘‘knowledge, skill, experience,
training, or education’’ to provide an expert opinion. Fed. R. Evid. 702; United
States v. Nacchio, 555 F.3d 1234, 1241
(10th Cir. 2009). Next, it ‘‘determine[s]

845

whether the expert’s opinion is reliable by
assessing the underlying reasoning and
methodology.’’ Nacchio, 555 F.3d at 1241.
If either of these steps renders the expert’s opinion unreliable, the testimony is
inadmissible. Id.
On appeal, Mr. Foust does not challenge
Mr. Linville’s qualifications but instead
raises two arguments aimed at the reliability of his methodology. First, he argues
that the government did not meet its burden of establishing that Mr. Linville’s
methodology was reliable under the Daubert/Kumho Tire test. Second, he argues
that Mr. Linville did not use reliable
data — thus, making his method unreliable — because the exemplars were not
sufficiently contemporaneous. We disagree
and conclude the district court did not
abuse its discretion in admitting the testimony.
A. Mr. Linville’s Methodology
[4] Beginning with Mr. Foust’s broader argument, he contends that the prosecution failed to establish that Mr. Linville’s
methodology was reliable. In Daubert, the
Supreme Court highlighted a number of
considerations relevant to this inquiry: (1)
whether the theory can be tested; (2)
whether it is subject to peer review and
publication; (3) the known or potential error rate; (4) the existence and maintenance
of standards; and (5) the general acceptance in the relevant scientific community.
509 U.S. at 593–94, 113 S.Ct. 2786. However, this list is not exclusive, and the test
for reliability is flexible. Kumho Tire Co.,
Ltd. v. Carmichael, 526 U.S. 137, 150, 119
S.Ct. 1167, 143 L.Ed.2d 238 (1999). Handwriting analysis is primarily an experiencebased expertise, as opposed to sciencebased, which could make some Daubert
factors less relevant than others. See id.
Still, ‘‘some of Daubert’s questions can
help to evaluate the reliability even of

A4

846

989 FEDERAL REPORTER, 3d SERIES

experience-based testimony.’’ Id. at 151,
119 S.Ct. 1167.

e.g., United States v. Crisp, 324 F.3d 261,
271 (4th Cir. 2003).

Turning to the factors, we begin with
whether Mr. Linville’s method can be (and
has been) tested. Although it appears that
testing of handwriting comparison ‘‘mostly
falls short of the rigors demanded by the
ideals of science,’’ it is still subject to less
rigorous forms of testing. See United
States v. Baines, 573 F.3d 979, 990 (10th
Cir. 2009) (discussing Daubert factors in
the context of fingerprint analysis). Testing may be done through ‘‘criminal investigation[ and] court proceedings,’’ as well as
certification and proficiency exams. Id.
Here, Mr. Linville has undergone years of
training, has been certified by organizations of forensic examiners, and has rendered expert opinions in hundreds of
cases. Therefore, this factor provides some
support for admissibility.

On the other hand, the standards, peerreview, and error-rate factors do not necessarily support admission. Mr. Foust was
correct to point out that Mr. Linville’s
testimony regarding peer review and error
rates was lacking. Mr. Linville stated that
he participated as a guest editorial board
member on a peer-reviewed forensic journal; however, there was no testimony regarding whether his own methodology had
been peer reviewed. Mr. Linville also testified generically that forensic examiners
have a less than 1% error rate while lay
people have a 6.5% error rate, but it is not
clear that the study concerned the process
of identifying the author. While there may
be available evidence regarding peer review and error rates, it was not adequately
presented at the Daubert hearing to support admission.

Furthermore, the general-acceptance
factor weighs in favor of admissibility. As
the district court noted, ‘‘based on his description of how his science is practiced
and the way it has apparently been practiced for a good many years, my conclusion
is [ ] he is using accepted methodologies.’’
2 R. 70. Mr. Linville testified that handwriting analysis is a comparative process
and two fundamental principles underlie
the process: (1) no two individuals’ handwriting is the same and (2) an individual’s
own handwriting is never exactly the same.
He has also received training through forensic organizations and federal agencies,
which demonstrates some consensus in the
field. Although, as Mr. Foust argues, acceptance by unbiased experts is always
better, that does not mean this factor cannot support admission. See Baines, 573
F.3d at 991. And given the widespread
acceptance of handwriting comparison
through the years, we think this factor
supports admissibility in this case. See,

Finally, Mr. Linville follows the ASTM
standards for his analysis, but he testified
that these guidelines were ‘‘pretty basic’’
and not ‘‘hard-and-fast rules.’’ 2 R. 59.
Much like fingerprint analysis, handwriting comparison relies a lot ‘‘on the subjective judgment of the analyst,’’ which may
cut against admissibility. Baines, 573 F.3d
at 991. With that said, the nature of handwriting comparison as an experience-based
expertise lends itself to greater reliance on
subjectivity when compared to sciencebased expertise. So while this factor does
not necessarily support admission, we
think it has less relevance in the specific
context of handwriting comparison. See
Kumho Tire, 526 U.S. at 150, 119 S.Ct.
1167.
[5] On balance, our review of the Daubert factors provided mixed results, however we recognize that they are ‘‘meant to
be helpful, not definitive.’’ Id. at 151, 119
S.Ct. 1167. This understanding is particularly important because handwriting com-

A5

U.S. v. FOUST
Cite as 989 F.3d 842 (10th Cir. 2021)

parison is not a traditional science, and the
Daubert factors do not always correspond
perfectly. See id. at 150, 119 S.Ct. 1167.
During the hearing, the district court
heard extensive testimony about Mr. Linville’s methodology and analysis in this
case and observed that whether the expert
used accepted methodologies really had
not been questioned. 2 R. 70. We recognize
that there has been criticism of handwriting expertise in both the courts and academic literature. See, e.g., Almeciga v. Ctr.
for Investigative Reporting, Inc., 185 F.
Supp. 3d 401 (S.D.N.Y. 2016); Jennifer L.
Mnookin, Scripting Expertise: The History
of Handwriting Identification Evidence
and the Judicial Construction of Reliability, 87 Va. L. Rev. 1723 (2001). However,
given our standard of review, the district
court did not abuse its discretion in finding
Mr. Linville’s methodology reliable.
B.

Mr. Linville’s Underlying Data

[6] Mr. Foust next argues that Mr.
Linville’s opinion is based on faulty data
that renders his methodology unreliable.
Specifically, he highlights Mr. Linville’s
use of exemplars outside his one-to-twoyear range for contemporaneousness, thus
violating his own methodology. We disagree.
To start, Mr. Foust overstates Mr. Linville’s testimony. When discussing the timing of exemplars, Mr. Linville said, ‘‘it
would be nice if they were written relatively contemporaneous in time with the questioned writing, and that can be within a
year or two preceding or following the
documents at issue.’’ 2 R. 29. He noted
that this was his ‘‘personal preference’’ and
it was a view ‘‘expressed in text that [he]
own[s].’’ 2 R. 43. He elaborated further
that the need for contemporaneous exemplars varies, explaining that change in
handwriting is ‘‘somewhat overstated’’ but
there can be circumstances where very

847

recent exemplars are needed. 2 R. 43–44.
Mr. Foust’s suggestion that the two-year
cutoff is a strict rule under Mr. Linville’s
methodology is not supported by the record.
Furthermore, Mr. Linville relied primarily on the 2011 and 2017 exemplars that
were two-and-a-half months and eightmonths outside the two-year range. Mr.
Foust’s quarrel about the two-year cutoff
goes to the weight, not the admissibility of
Mr. Linville’s testimony. It is ‘‘for the jury
to evaluate the reliability of the underlying
data, assumptions, and conclusions.’’ In re
Urethane Antitrust Litig., 768 F.3d 1245,
1263 (10th Cir. 2014). Not every issue
raised about an expert’s opinion requires
the testimony to be excluded. Instead,
many of those concerns can be addressed
through ‘‘[v]igorous cross-examination,
presentation of contrary evidence, and
careful instruction on the burden of proof.’’
Daubert, 509 U.S. at 596, 113 S.Ct. 2786.
Indeed, Mr. Foust used much of his crossexamination to discredit the exemplars’ reliability. The district court also instructed
the jury that it is not required to accept
opinion testimony and that it is free to give
the testimony as much weight as the jury
thinks it deserves. 1 R. 320.
Because we believe this issue concerns
the data’s reliability — as opposed to the
methodology’s reliability as a whole — Mr.
Foust’s reliance on a nonprecedential case,
Crew Tile, is inapt. See Crew Tile Distrib.,
Inc. v. Porcelanosa L.A., Inc., 763 F. App’x
787 (10th Cir. 2019) (unpublished). In that
case, we concluded that the district court
erred by admitting a handwriting expert’s
testimony where the expert failed to complete the verification step of her methodology. Id. at 797–98. We reasoned that by
skipping that step the expert had ‘‘completely changed a reliable methodology’’ or
‘‘misapplied that methodology.’’ Id. at 797
(alteration and citation omitted). Impor-

A6

848

989 FEDERAL REPORTER, 3d SERIES

tantly, we noted that the district court did
not conduct a Daubert hearing and the
party failed to show that the methodology
was still reliable without the missing step.
Id. at 797. Here, the district court conducted a Daubert hearing where Mr. Linville
testified precisely about how the importance of contemporaneous exemplars can
vary. Mr. Linville did not skip a step or
change his methodology.

ual; Caleb Bird, an individual; Hollie
Purdy, an individual; Gerald J. Ross,
Jr., an individual; John Does 1-20, Defendants.
No. 20-4024, No. 20-4025
United States Court of Appeals,
Tenth Circuit.
FILED March 2, 2021
Background: Probate estate of deceased
pretrial detainee brought civil rights action, inter alia, against licensed practical
nurse (LPN) who worked at jail and doctor
who worked there part-time. The United
States District Court for the District of
Utah, No. 2:17-CV-01031, Dale A. Kimball,
Senior District Judge, denied the doctor’s
and the LPN’s motions for summary judgment, and they appealed.

AFFIRMED.

,
ESTATE OF Madison Jody JENSEN,
BY her personal representative Jared
JENSEN, Plaintiff - Appellee,

Holdings: The Court of Appeals, Kelly,
Senior Circuit Judge, held that:

v.
Jana CLYDE, Defendant - Appellant,
and
Duchesne County, a Utah governmental
entity; David Boren; Jason Curry; Logan Clark; Kennon Tubbs; Elizabeth
Richens; Caleb Bird; Hollie Purdy;
Gerald J. Ross, Jr.; John Does, Defendants.
The Estate of Madison Jody Jensen, by
her personal representative Jared
Jensen, Plaintiff - Appellee,

(1) private doctor who was employed by
county on part-time basis, in providing
medical services to inmates at county
jail where he worked alongside the
jail’s officers and full-time staff, had
ability to raise qualified immunity defense;
(2) while protocols established and training
provided by doctor may not have been
the most robust, probate estate could
not establish requisite degree of personal involvement, causation, and state
of mind;
(3) doctor did not violate any right of
detainee that was clearly established
at time, and thus was protected by
qualified immunity from suit under
§ 1983; but

v.
Kennon Tubbs, an individual,
Defendant - Appellant,
and
Duchesne County, a Utah governmental
entity; David Boren, an individual; Jason Curry, an individual; Jana Clyde,
an individual; Logan Clark, an individual; Elizabeth Richens, an individ-

(4) licensed practical nurse (LPN) ignored
a risk of harm that would have been
obvious to reasonable person.
Affirmed in part, reversed in part, and
remanded.

A7

Case 5:18-cr-00011-F Document 72 Filed 01/17/19 Page 62 of 118

62
1

MR. SNYDER:

2

THE COURT:

3

No, Your Honor.
Very well.

I'm not going to repeat at any great length the standards

4

that apply here.

5

deserve mention and I'm going to try to keep that mention

6

brief.

7

There are some aspects of it that I think

Obviously, the basic standard of Rule 702 and Daubert and

8

Kumho and the Tenth Circuit's progeny of those opinions from

9

the Supreme Court and Rule 702 are stated in slightly different

10

ways in slightly different places.

11
12

Rule 702 says what it says, and I'm not going to burden
the record by repeating it here.

13

The Tenth Circuit had a couple of decisions in the case of

14

Goebel vs. Denver and Rio Grande Western Railway, which is the

15

-- I call them the Goebel I decision and the Goebel II

16

decision.

17

The Goebel I decision is at 215 F.3d 1083, with the

18

relevant discussion at page 1087.

19

gatekeeper function "requires the judge to assess the reasoning

20

and methodology underlying the expert's opinion and determine

21

whether it is scientifically valid and applicable to a

22

particular set of facts."

23

And it says simply that the

The test is not one of ultimate persuasiveness.

The test

24

is whether it's sufficient to clear the Daubert and Rule 702

25

bar.

Ultimate persuasiveness is for the jury to decide if it

Tracy Thompson, RDR, CRR
United States Court Reporter
U.S. Courthouse, 200 N.W. 4th St.
Oklahoma City, OK 73102 * 405.609.5505

A8

62 Vol 2

Case 5:18-cr-00011-F Document 72 Filed 01/17/19 Page 63 of 118

63
1

clears the Daubert and Rule 702 bar.

2

look at the expert's, first of all, qualifications if they're

3

challenged, which they're not in this instance, and then at the

4

methodology and the reliability of the methodology.

5

there's all sorts of avenues of attack on that, which I'll

6

mention briefly, but basically it's a question as condensed

7

into the language of Rule 702, is whether the expert applied

8

reliable methodologies, reliable methods and principles to

9

facts that are reasonably ascertainable so that the opinion

10

proffered by the expert does not amount simply to the ipse

11

dixit of the expert.

12

So that requires me to

And

Let there be no doubt, as I mentioned at the outset, that

13

the burden is on the proponent of the proposed expert testimony

14

under Rule 104 to establish the admissibility of the testimony,

15

so all an opposing party has to do is what the defendant did in

16

this case and that is file a motion asking me to perform my

17

gatekeeper function, and I will do so.

18

The burden is also cast upon the government not only by

19

Rule 104, but by footnote 10 to the Daubert decision at page

20

592.

21

Circuit's decision in Ralston vs. Smith & Nephew Richards, 275

22

F.3d 965.

23

And that's echoed also by footnote 4 to the Tenth

Again, it's important to understand that I am not sitting

24

here to pass on the ultimate persuasiveness.

As the Daubert

25

court said at page 595, my focus "must be solely on principles

Tracy Thompson, RDR, CRR
United States Court Reporter
U.S. Courthouse, 200 N.W. 4th St.
Oklahoma City, OK 73102 * 405.609.5505

A9

63 Vol 2

Case 5:18-cr-00011-F Document 72 Filed 01/17/19 Page 64 of 118

64
1
2

and methodology, not on the conclusions that they generate."
However, there's one little exception to that and that's

3

in the Supreme Court's decision from 1997 in GE vs. Joiner, and

4

that is if the expert seems to be pulling facts that make a

5

difference out of the air, then the expert's opinion may be

6

determined to be inadmissible because I conclude "that there is

7

simply too great an analytical gap between the data and the

8

opinion proffered."

9

decision.

10

That's from page 146 of the GE vs. Joiner

And in a case like this one, I think that tends to be an

11

especially informative source of guidance, because most of the

12

facts that the expert purports to rely on are facts that, even

13

though we might not be able to analyze them ourselves

14

independently, we can at least see whether he's got facts that

15

seem at least superficially to support the proffered opinions

16

or not.

17

It is not necessary to address Mr. Linville's

18

qualifications and I certainly don't intend at 4:30 in the

19

afternoon to do so.

20

I think that's for very good reason.

21

His qualifications are not questioned and

So under Rule 702, I do examine whether the defendant --

22

whether the expert's witnesses (sic) are based on sufficient

23

facts or data, whether his testimony is the product of reliable

24

principles and methods and whether he has applied those

25

principles and methods reliably to the facts of the case.

Tracy Thompson, RDR, CRR
United States Court Reporter
U.S. Courthouse, 200 N.W. 4th St.
Oklahoma City, OK 73102 * 405.609.5505

A10

64 Vol 2

Case 5:18-cr-00011-F Document 72 Filed 01/17/19 Page 65 of 118

65
1

The Daubert decision itself gave us some guidance as to

2

exactly how we do that, gave us some factors to be considered.

3

We got some further guidance and I think reliable guidance from

4

Kumho because Kumho took the analysis out of the realm of pure

5

science.

6

which sometimes involves different considerations than

7

disciplines that are not pure science, like the tire product

8

liability case before the Court in the Kumho decision, so we

9

got further guidance from the Kumho decision.

10

Daubert, being an epidemiology case, pure science,

And then along came the Advisory Committee in 2000 and

11

amended Rule 702 to conform to Daubert and Kumho, to basically

12

codify them in very broad strokes, and the Advisory Committee

13

in the year 2000 gave us some more considerations to take into

14

account.

And those are in the Advisory Committee's notes.

15

The ones I think that are perhaps most salient here in

16

enabling me to call either balls or strikes in terms of the

17

admissibility of Mr. Linville's opinions are whether he has

18

unjustifiably extrapolated from an accepted premise to an

19

unfounded conclusion or whether he has adequately accounted for

20

obvious alternative explanations.

21

That comes to mind, for instance, in the way that he

22

analyzed some differences in the 7s, which I'll talk about here

23

in just a few minutes.

24

Also, another factor in the 2000 Advisory Committee notes

25

that I think is helpful here is whether the field of expertise

Tracy Thompson, RDR, CRR
United States Court Reporter
U.S. Courthouse, 200 N.W. 4th St.
Oklahoma City, OK 73102 * 405.609.5505

A11

65 Vol 2

Case 5:18-cr-00011-F Document 72 Filed 01/17/19 Page 66 of 118

66
1

claimed by the expert is a field known to reap reliable results

2

for the type of opinion that the expert proposes to give.

3

And in summary, as to the standards that I apply, the

4

Daubert assessment is a determination of whether the

5

conclusions to be expressed by the expert, having the necessary

6

qualifications in the relevant field, are the product of the

7

application of that expertise using recognized and supportable

8

methodologies; secondly, on the basis of adequate data;

9

thirdly, rationally tied the opinions which purport to be based

10

on that data.

11

Any step in that sequence, if you will, that falls short

12

renders the analysis unreliable and renders the expert's

13

testimony inadmissible.

14

analysis completely changes a reliable methodology or simply

15

misapplies that reliable methodology, as was made clear by the

16

Tenth Circuit in the Goebel II decision, 346 F.3d at 992.

17

was also echoed in the Tenth Circuit's later decision in

18

Mitchell -- I'm sorry -- earlier decision in Mitchell vs.

19

Gencorp, 165 F.3d 778, with the relevant discussion at page

20

782.

That's true whether the step in the

That

21

That, in a nutshell, is the standards that I apply.

22

So I have before me Mr. Linville, a witness who first of

23

all told me about some of the -- some aspects of his

24

methodology.

25

signature, the slant of the letters in the cursive writing, the

He talked about looking for the size of the

Tracy Thompson, RDR, CRR
United States Court Reporter
U.S. Courthouse, 200 N.W. 4th St.
Oklahoma City, OK 73102 * 405.609.5505

A12

66 Vol 2

Case 5:18-cr-00011-F Document 72 Filed 01/17/19 Page 67 of 118

67
1

alignment of the letters, what he called "letter design," what

2

he called "connecting strokes."

3

substantial factual base from which to extrapolate.

4

and of itself doesn't mean necessarily that his opinion becomes

5

any more reliable than it would otherwise be, but given the

6

numbers that are set forth in his letter, he certainly had a

7

very substantial set of signatures to compare for the purposes

8

that he told us.

And he certainly had a
That in

9

In Exhibit 5, as we're all aware, he focused on six known

10

Putman signatures and then he focused on six questioned Putman

11

signatures and then he had six known signatures by the

12

Defendant Justin Foust, and in my view, perhaps most notably,

13

six sets of numbers written by Mr. Foust.

14

And his methodology consisted of looking for similarities,

15

which he described as basically the absence of significant

16

differences.

17

Secondly, he sought to determine whether the questioned

18

Putman signatures were actually his.

633 were not by

19

Mr. Putman, but were written in the natural hand of a person.

20

And as Mr. Linville, I think, fairly, to me, at least,

21

interestingly described, that's -- sometimes the analysis stops

22

there.

23

natural hand, even if it was not written in the natural hand of

24

the person whose signature it purports to be.

25

Was the questioned one at least written in somebody's

His next step was to determine whether in the case of a

Tracy Thompson, RDR, CRR
United States Court Reporter
U.S. Courthouse, 200 N.W. 4th St.
Oklahoma City, OK 73102 * 405.609.5505

A13

67 Vol 2

Case 5:18-cr-00011-F Document 72 Filed 01/17/19 Page 68 of 118

68
1

signature written by a natural hand, whether a person can be

2

identified as the source of the questioned signatures that were

3

not genuine, but were written in a natural hand, and that

4

eliminated Mr. and Mrs. Lucas.

5

I think there's grist for cross-examination there, in that

6

he apparently did not have an opportunity to eliminate the

7

other two people, but he did eliminate Mr. and Mrs. Lucas at

8

that third step because he had []quite the signatures that he

9

concluded were demonstrably not those of Mr. Putman, but were

10

written in a natural hand.

11

instances collected exemplars which were, I think, naturally to

12

be preferred, as well as requested exemplars.

13

And in so doing, he had in some

So he looked at the size, he looked at the strokes, and he

14

seemed to pay most attention to terminating strokes.

15

at the pictorial appearance, which he described in response to

16

my question as kind of an overall global look at the

17

comparability of the two pictures; the skill of the writer,

18

which is kind of an interesting concept that I'm not sure I

19

totally understand; and the spacing.

20

apparently in some respects horizontal spacing to be looked at

21

and vertical spacing to be looked at.

22

looks at the space between the numbers and the line.

23

He looked

And that there's

For instance, when he

Having done that and having looked at those aspects of the

24

signatures in question, then he went to the numerals.

25

identified -- and this, to me, carries some weight.

He
He

Tracy Thompson, RDR, CRR
United States Court Reporter
U.S. Courthouse, 200 N.W. 4th St.
Oklahoma City, OK 73102 * 405.609.5505

A14

68 Vol 2

Case 5:18-cr-00011-F Document 72 Filed 01/17/19 Page 69 of 118

69
1

identified a combination of common elements.

2

He looked at the 9s with a consistent left-hand []slot.

3

He looked at the 7s with a consistent right-hand []slot.

And

4

he testified that it's really pretty unusual -- he was fairly

5

emphatic about that -- to have those numbers next to each

6

other, one slanting in one direction, the other one slanting in

7

the other direction.

8

And he found it to be generally consistent from the

9

questioned signatures to the -- or the numbers in questioned

10

signatures or the questioned numbers shown to have been written

11

by Mr. Foust.

12

An example of accounting for possible alternative

13

explanations, and that is one of the original Daubert factors,

14

is Mr. Linville's explanation of why some of the known 7s

15

written by Mr. Foust looked like the questioned 7s and some do

16

not look like the boomerang 7s that were typical of the

17

questioned handwriting.

18

but it turns out the squared-off 7s were written several years

19

earlier than the more curved 7s, as he described as boomerang

20

7.

21

alternative explanations.

22

Some of the 7s were more squared off,

That, to me, is an example of accounting for possible

So my basic question, after I heard what he had to say,

23

after I had read the briefs, was:

Is Mr. Linville drawing

24

conclusions based on a factual finding that appears to be so

25

scant that what I'm getting from him and what the government

Tracy Thompson, RDR, CRR
United States Court Reporter
U.S. Courthouse, 200 N.W. 4th St.
Oklahoma City, OK 73102 * 405.609.5505

A15

69 Vol 2

Case 5:18-cr-00011-F Document 72 Filed 01/17/19 Page 70 of 118

70
1

proposes to give to the jury is simply the ipse dixit of the

2

expert?

3
4
5
6
7

My answer to that question is, no, he's not simply trying
to give the jury the ipse dixit of the expert.
My next question, and perhaps it's related, is:

Is he

using accepted methodologies?
That really has not been questioned here, and perhaps with

8

good reason, but to the extent that there is room for any

9

suggestion that his methodologies are not accepted, I find

10

that, yes, based on his description of how his science is

11

practiced and the way it has apparently been practiced for a

12

good many years, my conclusion is, yes, he is using accepted

13

methodologies.

14

Is he relying -- is he reliably applying those principles

15

and methodologies to the facts of the case?

16

Again, that's not a matter of the ultimate persuasive value of

17

his proposed expert testimony, that is a question of whether he

18

clears the Daubert bar, which is one of sufficiency, not

19

ultimate persuasiveness.

20

In my view, he is.

He walked me through his analysis of K-1 through K-6, Q-1

21

through Q-6, K-7 through K-12, and K-13 through K-18.

And so,

22

first of all, you look at Q-1 through Q-6 and compare them to

23

K-1 through K-6 and the first thing you ask yourself is, well,

24

is this black magic or what.

25

looking at black magic when you try to say that the Qs are

To my untrained eye, we're

Tracy Thompson, RDR, CRR
United States Court Reporter
U.S. Courthouse, 200 N.W. 4th St.
Oklahoma City, OK 73102 * 405.609.5505

A16

70 Vol 2

Case 5:18-cr-00011-F Document 72 Filed 01/17/19 Page 71 of 118

71
1

written by the same guy who wrote K-7 through K-11 than they

2

are likely to be from the guy who wrote K-1 through K-6.

3

Since it appears to a lay person to be an exercise in

4

black magic, then I ask myself:

5

has he described a methodology, has he shown me that this is

6

something other than picking his opinions out of the air to

7

satisfy the people who wrote the checks to him to pay his fee?

8
9
10

Has he shown me a methodology,

And my answer is, yes, he has shown me a reliable
methodology.
And I conclude, consequently, that he is reliably applying

11

the principles and methodologies of his science and his craft

12

to the facts of the case.

13

For those reasons, I do conclude that the proposed expert

14

testimony of Arthur Linville does clear the Daubert and Rule

15

702 hurdle and is admissible.

16

Now, we're here at 20 till 5:00, I'll be happy to resume

17

tomorrow morning, but if either side has any particular reason

18

for us to get started on the Jackson vs. Denno hearing, I'll be

19

happy to hear your suggestion.

20

What says the government?

21

MS. PERRY:

Your Honor, we don't have a preference.

22

I don't anticipate that I would have Special Agent Jaworski on

23

the stand for too long, but it might be beneficial for the

24

Court to hear direct examination and cross-examination

25

together.

Tracy Thompson, RDR, CRR
United States Court Reporter
U.S. Courthouse, 200 N.W. 4th St.
Oklahoma City, OK 73102 * 405.609.5505

A17

71 Vol 2

